Board of Governors of the Federal Reserve System




        Material Loss Review of
            SolutionsBank




       Office of Inspector General



                                           June 2010
                                         June 30, 2010


The Honorable Daniel K. Tarullo
Chairman
Committee on Supervisory and Regulatory Affairs
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Governor Tarullo:

      Consistent with the requirements of section 38(k) of the Federal Deposit Insurance Act
(FDI Act), as amended, 12 U.S.C. 1831o(k), the Office of Inspector General of the Board of
Governors of the Federal Reserve System conducted a material loss review of SolutionsBank
(Solutions). The FDI Act requires that the Inspector General of the appropriate federal banking
agency review the agency’s supervision of a failed institution when the loss to the Deposit
Insurance Fund (DIF) is material—that is, it exceeds the greater of $25 million or 2 percent of
the institution’s total assets. The FDI Act specifically requires that we

     •   review the institution’s supervision, including the agency’s implementation of Prompt
         Corrective Action (PCA);
     •   ascertain why the institution’s problems resulted in a material loss to the DIF; and
     •   make recommendations for preventing any such loss in the future.

      Solutions was supervised by the Federal Reserve Bank of Kansas City (FRB Kansas City),
under delegated authority from the Board of Governors of the Federal Reserve System (Federal
Reserve Board), and by the Office of the State Bank Commissioner of Kansas (State). The State
closed Solutions in December 2009, and the Federal Deposit Insurance Corporation (FDIC) was
named receiver. On January 4, 2010, the FDIC Inspector General notified us that Solutions’
failure would result in an estimated loss to the DIF of $119.0 million, or 23.3 percent of the
bank’s $510.1 million in total assets.

      Solutions failed because its Board of Directors and management did not control the risks
associated with an aggressive growth strategy, funded by non-core deposit sources, that
expanded the scope of the bank’s traditional activities. This strategy resulted in the bank
developing a significant loan concentration in commercial real estate (CRE), including
construction, land development, and other land (CLD), that made the bank particularly
vulnerable to real estate market declines. As real estate markets served by the bank weakened,
asset quality deterioration strained earnings and depleted capital.
Governor Daniel K. Tarullo                       2                                   June 30, 2010


      In October 2009, the Federal Reserve Board executed a PCA Directive that, among other
things, required Solutions to strengthen its capital position. Issuance of this formal enforcement
action resulted in net deposit withdrawals. Because of the decline in deposits and the
unavailability of alternative funding sources, Solutions sought liquidity support from the Federal
Reserve System’s Discount Window. After obtaining sufficient collateral, FRB Kansas City
granted the bank access to the Discount Window to facilitate an orderly closing of the bank. On
December 11, 2009, the bank’s liquidity was insufficient to meet its operating needs, and the
State declared Solutions insolvent and appointed the FDIC as receiver. On December 14, 2009,
the next business day, the bank that assumed Solutions’ liabilities as part of an acquisition fully
repaid the liquidity support provided to ensure the bank’s orderly closure.

      FRB Kansas City complied with the examination frequency guidelines for the timeframe
we reviewed, 2004 through 2009, and conducted regular off-site monitoring. FRB Kansas City
and the State conducted four full scope examinations, an asset quality target examination, and a
supervisory assessment before Solutions failed in December 2009. In addition, the bank was
subject to two formal enforcement actions—a Written Agreement and a PCA Directive.

      Fulfilling our mandate under section 38(k) of the FDI Act provides an opportunity to
determine, in hindsight, whether additional or alternative supervisory actions could have been
taken to reduce the likelihood of a bank’s failure or loss to the DIF. Our analysis of FRB Kansas
City’s supervision of Solutions revealed that examiners had an opportunity in early 2008 for an
earlier and more forceful supervisory action given the bank’s aggressive growth strategy. In its
January 2008 examination report, FRB Kansas City commented on softness in the nationwide
real estate market and noted that the bank’s loan portfolio included a large concentration of CRE
and CLD loans. Examiners also observed that the bank’s already below peer capital ratios had
declined, and that the bank increased its reliance on non-core funding sources. In our opinion,
these findings presented an opportunity to question the advisability of management’s continued
aggressive growth strategy. However, FRB Kansas City only required the bank to develop a
more robust capital plan and to enhance its CRE risk management processes. The case for a
stronger supervisory response in the early 2008 timeframe is supported by a January 2009
examination report, which concluded that management’s decision to execute an aggressive
growth strategy without the support of adequate capital resulted in the bank’s unsatisfactory
financial condition.

      While we believe that FRB Kansas City had an opportunity for an earlier and more forceful
supervisory action, it is not possible for us to predict the effectiveness or impact of any
corrective measures. Therefore, we cannot evaluate the degree to which an earlier or more
forceful supervisory response might have affected Solutions’ financial deterioration or the
ultimate cost to the DIF.

       Although the failure of an individual institution does not necessarily provide sufficient
evidence to draw broad-based conclusions, we believe that Solutions’ failure offers lessons
learned that can be applied to supervising banks with similar characteristics and circumstances.
First, a community bank with large CRE and CLD loans relative to its total assets is particularly
vulnerable to real estate market declines. Second, the failure underscores the risk of pursuing a
new business strategy that features growth in high-risk lending outside of an institution’s
Governor Daniel K. Tarullo                       3                                    June 30, 2010


traditional market area. Finally, we believe the failure demonstrates that examiners should
assess capital needs based on an institution’s strategy and growth targets, in addition to the
quantitative regulatory capital levels established by PCA.

     We provided a copy of our report to the Director of the Division of Banking Supervision
and Regulation for review and comment. The Director concurred with our conclusion and
lessons learned. His response is included as Appendix 3.

      We appreciate the cooperation that we received from FRB Kansas City and Federal
Reserve Board staff during our review. The principal Office of Inspector General contributors to
this report are listed in Appendix 4. This report will be added to our public web site and will be
summarized in our next semiannual report to Congress. Please contact me if you would like to
discuss this report or any related issues.

                                             Sincerely,



                                      Elizabeth A. Coleman
                                        Inspector General

cc:   Chairman Ben S. Bernanke
      Vice Chairman Donald L. Kohn
      Governor Elizabeth A. Duke
      Governor Kevin M. Warsh
      Mr. Stephen R. Malphrus
      Mr. Patrick M. Parkinson
      Mr. Kevin L. Moore
Board of Governors of the Federal Reserve System




        Material Loss Review of
            SolutionsBank




       Office of Inspector General


                                              June 2010
                                                       Table of Contents

                                                                                                                                        Page

Background ....................................................................................................................................9

Objectives, Scope, and Methodology............................................................................................9

Cause of the Failure .....................................................................................................................10

     Strategy Change Resulted in Rapid Growth and CRE and CLD Concentrations....................10

     Management Relied on Non-core Funding Sources to Fund Loan Growth ............................12

     Real Estate Market Decline Led to Loan Portfolio Deterioration ...........................................13

     Loan Portfolio Losses Eroded Capital .....................................................................................13

Supervision of SolutionsBank .....................................................................................................15

     Supervision History from 2004 through 2007 .........................................................................16

     November 2008 Target Examination Resulted in a Double Downgrade
     to a CAMELS Composite 4 Rating .........................................................................................17

     April 2009 Joint Examination Resulted in a Downgrade to a CAMELS
     Composite 5 Rating and a PCA Directive ...............................................................................18

     November 2009 Joint Supervisory Assessment .......................................................................19

Conclusion and Lessons Learned ...............................................................................................19

     Lessons Learned.......................................................................................................................20

Analysis of Comments .................................................................................................................20

Appendixes....................................................................................................................................21

     Appendix 1 – Glossary of Banking and Regulatory Terms .....................................................23

     Appendix 2 – CAMELS Rating System ..................................................................................27

     Appendix 3 – Division Director’s Comments .........................................................................29

     Appendix 4 – Principal Office of Inspector General Contributors to this Report ...................31


                                                                       7
Background
SolutionsBank (Solutions), headquartered in Overland Park, Kansas, began operations in 1881 as
a national bank focused on agricultural lending in south-central Kansas. In February 2002, the
bank became a state chartered member bank supervised by the Federal Reserve Bank of Kansas
City (FRB Kansas City), under delegated authority from the Board of Governors of the Federal
Reserve System (Federal Reserve Board), and by the Office of the State Bank Commissioner of
Kansas (State). In 2004, Solutions expanded the scope of its business activities to include
commercial lending to businesses in the Kansas City metropolitan area and regional real estate
developers.

The State closed Solutions on December 11, 2009, and the Federal Deposit Insurance
Corporation (FDIC) was named receiver. The FDIC estimated that the bank's failure would
result in a $119.0 million loss to the Deposit Insurance Fund (DIF), or 23.3 percent of the bank's
$510.1 million in total assets. In a letter dated January 4, 2010, the FDIC Inspector General
advised us that the FDIC had determined that Solutions’ failure would result in a material loss to
the DIF. Under section 38(k) of the Federal Deposit Insurance Act (FDI Act), a loss to the DIF
is considered material if it exceeds the greater of $25 million or 2 percent of the institution’s total
assets.

Objectives, Scope, and Methodology
When a loss to the DIF is considered material, section 38(k) of the FDI Act requires that the
Inspector General of the appropriate federal banking agency

    •   review the agency’s supervision of the failed institution, including the agency’s
        implementation of Prompt Corrective Action (PCA);
    •   ascertain why the institution’s problems resulted in a material loss to the DIF; and
    •   make recommendations for preventing any such loss in the future.

To accomplish our objectives, we reviewed the Commercial Bank Examination Manual and
relevant supervisory guidance. We interviewed FRB Kansas City, State, and Federal Reserve
Board staff and collected relevant data from FRB Kansas City records. We also reviewed
correspondence, surveillance reports, regulatory reports filed by Solutions, examination reports
issued from 2004 through 2009, and examination work papers prepared by FRB Kansas City.
Appendixes at the end of this report contain a glossary of key banking and regulatory terms and a
description of the CAMELS rating system. 1 We conducted our fieldwork from January 2010
through June 2010, in accordance with the Quality Standards for Inspections issued by the
Council of the Inspectors General on Integrity and Efficiency.



    1
      The CAMELS acronym represents six components: Capital adequacy, Asset quality, Management practices,
Earnings performance, Liquidity position, and Sensitivity to market risk. Each component and overall composite
score is assigned a rating of 1 through 5, with 1 having the least regulatory concern.


                                                       9
Cause of the Failure
Solutions failed because its Board of Directors and management did not control the risks
associated with an aggressive growth strategy, funded by non-core deposit sources, that
expanded the scope of the bank’s traditional activities. This strategy resulted in the bank
developing a significant loan concentration in commercial real estate (CRE), including
construction, land development, and other land (CLD), that made the bank particularly
vulnerable to real estate market declines. As real estate markets served by the bank weakened,
asset quality deterioration strained earnings and depleted capital.

In October 2009, the Federal Reserve Board executed a PCA Directive that, among other things,
required Solutions to strengthen its capital position. Issuance of this formal enforcement action
resulted in net deposit withdrawals. Because of the decline in deposits and the unavailability of
alternative funding sources, Solutions sought liquidity support from the Federal Reserve
System’s Discount Window. After obtaining sufficient collateral, FRB Kansas City granted the
bank access to the Discount Window to facilitate an orderly closing of the bank. On
December 11, 2009, the bank’s liquidity was insufficient to meet its operating needs, and the
State declared Solutions insolvent and appointed the FDIC as receiver. On December 14, 2009,
the next business day, the bank that assumed Solutions’ liabilities as part of an acquisition fully
repaid the liquidity support provided to ensure the bank’s orderly closure.

Strategy Change Resulted in Rapid Growth and CRE and CLD Concentrations

Solutions experienced rapid asset growth between 2004 and 2008 as it transitioned from
agricultural lending to a community bank focused on lending to businesses and real estate
developers. The bank’s 2005 strategic plan established a goal of reaching $500 million in total
assets by December 31, 2009. The bank surpassed $500 million in total assets by year-end
2008—one year earlier than the goal established in the strategic plan—with annual growth rates
of 34.2 percent in 2005, 16.4 percent in 2006, 31.6 percent in 2007, and 39.5 percent in 2008.

Management’s growth strategy focused on CRE and CLD lending and emphasized large loans
for real estate development projects that were often outside the bank’s market area. As shown in
Chart 1, Solutions’ CRE loan portfolio alone increased $268.6 million, or 866 percent, from
$31.0 million in 2003 to $299.6 million in 2008. In addition, the CLD loan portfolio increased
1,460 percent from $9.5 million to $148.2 million over the same time period.




                                                10
Chart 1: Growth in CRE and CLD Loans

                     $350,000

                     $300,000

                     $250,000
    ($000 omitted)
      Total CRE




                     $200,000

                     $150,000                                                                        Other CRE loans
                                                                                                     CLD loans
                     $100,000

                      $50,000

                          $0
                                2003   2004       2005        2006        2007        2008
                                                      Year-end


Solutions’ growth strategy led to high concentrations in CRE and CLD loans. 2 In general,
concentrations of credit increase a bank’s vulnerability to changes in the marketplace and,
therefore, may pose a substantial risk to a financial institution. As shown in Chart 2a on the next
page, the bank’s CRE loan concentration was approximately 462 percent of total risk-based
capital as of December 31, 2004, and reached 668 percent by December 31, 2008. Historically,
the bank’s CRE loan concentration was well above its peer group average. As illustrated in
Chart 2b, Solutions’ CLD loan concentration also consistently exceeded its peer group average
and reached 330 percent by December 31, 2008.




    2
      According to the Federal Reserve Board’s Supervision and Regulation Letter 07-1, Interagency Guidance on
Concentrations in Commercial Real Estate, an institution presents potential CRE concentration risk if it meets the
following criteria: (1) total reported loans for construction, land development, and other land represent 100 percent
or more of an institution’s total capital; or (2) total CRE loans represent 300 percent or more of the institution’s total
capital, and the outstanding balance of the institution’s CRE loan portfolio has increased by 50 percent or more
during the prior 36 months.

                                                           11
 Chart 2a: CRE Loan Concentration                                              Chart 2b: CLD Loan Concentration

                                             800%                                                                        350%
        Total CRE Loans as a Percentage of




                                                                                    Total CLD Loans as a Percentage of
                                             700%                                                                        300%
              Total Risk-based Capital




                                                                                          Total Risk-based Capital
                                             600%
                                                                                                                         250%
                                             500%
                                                                                                                         200%
                                             400%
                                                                                                                         150%
                                             300%
                                                                                                                         100%
                                             200%
                                             100%                                                                        50%

                                              0%                                                                          0%
                                                    2004 2005 2006 2007 2008                                                    2004 2005 2006 2007 2008
                                                            Year-end                                                                    Year-end

                                                Solutions     Peer Group                                                    Solutions     Peer Group


Management Relied on Non-core Funding Sources to Fund Loan Growth

Solutions funded its loan growth with non-core funding sources, primarily high-rate certificates
of deposit (CDs) over $100,000, supplemented by Federal Home Loan Bank (FHLB) borrowings
and brokered deposits. As shown in Chart 3, Solutions’ net non-core funding dependence ratio
consistently exceeded its peer group average. 3 Reliance on non-core funding from high rate CDs
over $100,000 and brokered deposits is considered a risky strategy that can have a significant
negative effect on liquidity. These depositors typically have no other relationship with the bank
and are only seeking the highest possible return on investment. In general, non-core funding
sources may not be available in times of financial stress or adverse changes in market conditions.




    3
      The net non-core funding dependence ratio measures the extent to which banks fund assets with non-core
funding. Higher ratios reflect a reliance on funding sources that may not be available in times of financial stress or
adverse changes in market conditions.

                                                                               12
Chart 3: Net Non-core Funding Dependence Ratio


                 45%
                 40%
                 35%
                 30%
   Percentagee




                 25%
                                                                            SolutionsBank
                 20%
                                                                            Peer Group
                 15%
                 10%
                 5%
                 0%
                       2004   2005     2006     2007       2008
                                     Year-end


Real Estate Market Decline Led to Loan Portfolio Deterioration

Solutions’ vulnerability to real estate market declines became evident as the real estate markets
its served began to deteriorate in the late 2007 to early 2008 timeframe. According to examiners,
the “slumping” residential and commercial real estate markets led to classified assets increasing
474 percent from $6.9 million in October 2007 to $39.6 million in September 2008. In addition,
examiners noted that Solutions’ asset quality deterioration was exacerbated by the bank’s
significant CRE and CLD loan concentrations. By March 2009, classified assets totaled $73.8
million, with approximately $47.4 million, or 64.2 percent, of the classified assets concentrated
in eight CLD real estate projects.

Solutions’ Board of Directors and management failed to take timely action in response to
deteriorating asset quality. In 2009, management indicated that it planned to limit CRE loan
portfolio growth, but examiners concluded that management’s decision was made too late to be
effective. In addition, management was slow to identify problem loans, and in April 2009,
examiners downgraded management’s internal ratings on loans totaling $24.3 million.

Loan Portfolio Losses Eroded Capital

The growth in classified assets prompted corresponding increases in Solutions’ loan loss
provision expense. As shown in Chart 4 on the next page, the bank’s provision expense
increased from $0.3 million in 2004, to $8.7 million in 2008. A continued increase in classified
assets led to an additional provision expense of $24.7 million for the nine-month period ending
September 30, 2009, a 183 percent increase from the prior year. The 2009 provision expense
contributed to a net loss of $26.6 million, which significantly reduced Solutions’ capital.

                                                13
Chart 4: Impact of Provision Expense on Earnings



                       $30,000
                       $25,000
                       $20,000
                       $15,000
     $000's omitted




                       $10,000
                        $5,000
                            $0
                       -$5,000
                      -$10,000
                      -$15,000
                      -$20,000
                      -$25,000
                      -$30,000
                                 2004   2005        2006         2007         2008   2009*
                                                          Year-End

                                           Provision Expense     Net Income (Loss)

* Data as of September 30, 2009

FRB Kansas City implemented the PCA provisions of the FDI Act and made timely notifications
when the bank reached various PCA categories. PCA is a framework of supervisory actions
intended to promptly resolve capital deficiencies in troubled depository institutions. On
April 30, 2009, Solutions was notified that it was no longer well capitalized and, therefore, could
not accept, renew, or roll over any brokered deposits. The notice also stated that the bank was
subject to limitations on the interest rates it could pay to depositors. On July 30, 2009, FRB
Kansas City informed the bank’s Board of Directors that Solutions was undercapitalized and
required the bank to submit an acceptable capital restoration plan by August 19, 2009.

Solutions’ capital restoration plan was deemed unacceptable, and the bank was declared
significantly undercapitalized on September 25, 2009. The Federal Reserve Board issued a PCA
Directive on October 23, 2009, that, among other things, required Solutions to restore the bank’s
capital position to adequately capitalized or merge with or be acquired by another insured
depository institution.

The issuance of the PCA Directive prompted net deposit withdrawals of approximately
$10 million per week between November 2, 2009, and December 10, 2009. Because of the
decline in deposits and the unavailability of additional FHLB borrowings, brokered deposits, and
alternative funding sources, Solutions sought liquidity support from the Federal Reserve
System’s Discount Window. After obtaining sufficient collateral, FRB Kansas City granted the
bank access to the Discount Window to facilitate an orderly closing. On December 11, 2009, the
bank’s liquidity was insufficient to meet its daily operating needs, and the State declared the
bank insolvent and appointed the FDIC as receiver.


                                                     14
Supervision of SolutionsBank
FRB Kansas City complied with the examination frequency guidelines for the timeframe we
reviewed, 2004 through 2009, and conducted regular off-site monitoring. As shown in Table 1
on the next page, FRB Kansas City and the State conducted four full scope examinations, an
asset quality target examination, and a supervisory assessment before Solutions failed in
December 2009. The bank received CAMELS composite 2 (satisfactory) ratings for the full
scope examinations conducted between November 2004 and January 2008. In November 2008,
examiners began an asset quality target examination that resulted in Solutions being double
downgraded to a CAMELS composite 4 (marginal) rating. Subsequently, a Written Agreement
issued in March 2009 required the bank to develop improvement plans for capital, earnings, and
liquidity; enhance management of CRE concentrations; and assure the allowance for loan and
lease losses (ALLL) methodology was consistent with regulatory expectations.

In April 2009, FRB Kansas City and the State began a full scope examination that revealed
continued asset quality deterioration and resulted in the bank receiving a CAMELS composite 5
(unsatisfactory) rating. Examiners indicated that Solutions had not complied with various
provisions of the Written Agreement and had not developed an acceptable capital restoration
plan. The Federal Reserve Board subsequently issued a PCA Directive on October 23, 2009, that
required Solutions to become adequately capitalized or be acquired by or merge with another
depository institution within 30 days.

In November 2009, FRB Kansas City and the State began a supervisory assessment focused on
asset quality, the ALLL, and liquidity risk. Due to rapidly deteriorating liquidity, the asset
quality review portion of the assessment was limited to reviewing the credit quality of loans that
could be used as collateral for Discount Window borrowing. On November 9, 2009, examiners
downgraded the CAMELS components for liquidity and sensitivity to market risk to 5 and
indicated that Solutions would probably fail.

Our analysis of FRB Kansas City’s supervision of Solutions revealed that examiners had an
opportunity in early 2008 for an earlier and more forceful supervisory action in light of the
bank’s aggressive growth strategy.




                                                15
Table 1: Supervisory Overview of Solutions

                                                                                   CAMELS Component
              Examinations
                                                                                       Ratings




                                                                                    Asset Quality
                                              Agency         CAMELS




                                                                                                    Management




                                                                                                                                        Sensitivity
                                                                                                                            Liquidity
                                                                                                                 Earnings
                                           Conducting the    Composite                                                                                Supervisory Actions




                                                                         Capital
                 Report
 Start Date                    Scope        Examination       Rating
               Issue Date


 11/1/2004    12/27/2004        Full       FRB Kansas City       2       2           2              2            3          2            2
  6/8/2006     8/3/2006         Full            State            2       2           2              2            2          2            2
 11/13/2007    1/22/2008        Full       FRB Kansas City       2       2           2              2            2          3            2
 11/3/2008     1/16/2009       Target      FRB Kansas City       4       4           4              4            4          4            4            Written Agreement
                                              Joint FRB
 4/20/2009     8/19/2009        Full         Kansas City         5       5           5              5            5          4            4              PCA Directive
                                               and State
                                              Joint FRB
                             Supervisory
 11/2/2009     11/9/2009                     Kansas City         5       5           5              5            5          5            5
                             Assessment
                                               and State


Supervision History from 2004 through 2007

In November 2004, FRB Kansas City began a full scope examination that resulted in a CAMELS
composite 2 (satisfactory) rating. Examiners assigned a 2 rating to all CAMELS components,
except for earnings, which received a 3 (fair). The December 2004 examination report noted that
Solutions’ earnings, “while improving, were weak and less than adequate to support operations
and augment capital during periods of rapid asset growth.” Previously, the bank’s liquidity
component was rated 1 (strong), but FRB Kansas City downgraded liquidity to a 2 because the
bank increased its reliance on non-core deposit sources to fund loan growth. Examiners stated
that Solutions’ aggressive growth strategy resulted in CRE and CLD loan concentrations and
presented a higher than normal degree of risk. However, examiners concluded that risk
management practices were acceptable because (1) management and the Board of Directors
adequately monitored and controlled credit risk, (2) the bank had an adequate reporting system
and independent loan review function, and (3) the loan policy contained appropriate guidance
and limitations on lending activity.

In June 2006, the State conducted a full scope examination and again assigned the bank a
CAMELS composite 2 rating. Examiners upgraded earnings from 3 to 2, due to improvements
in Solutions’ net interest margin. Despite this upgrade, examiners concluded that the bank’s
earnings would not augment capital given its significant growth. Examiners maintained the 2
rating for liquidity despite noting the “strain” caused by continued significant growth.
Examiners recommended additions to the banks’ funds management policy to incorporate (1) the
conditions under which the institution could borrow and (2) contingency plans for meeting large,
unexpected withdrawals.

Additionally, the August 2006 examination report concluded that Solutions’ net non-core
funding dependence ratio was “well above” its peer group average and violated the bank’s
internal policy. Examiners concluded that credit administration practices were sufficient despite



                                                              16
a $4.7 million, or 204 percent, increase in classified assets. During this examination, the State
also highlighted the concentration risk posed by 10 customers with large, outstanding loans.

In November 2007, FRB Kansas City conducted a full scope examination that maintained
Solutions’ CAMELS composite 2 rating, although liquidity was downgraded to 3 because of the
bank’s increased reliance on non-core deposits. The January 2008 examination report reiterated
findings from the prior State examination and noted an increase in the bank’s reliance on non-
core funding sources. In addition, examiners required Solutions to implement a series of actions
that included (1) improving liquidity risk management monitoring and reporting to the Board of
Directors, and (2) developing a contingency funding plan to include steps for managing
unplanned changes in funding sources and market conditions. Examiners noted that capital
ratios exhibited a declining trend and remained below the bank’s peer group averages, and they
required Solutions to establish a more robust capital plan in light of projections for continued
aggressive loan growth.

Examiners raised concerns that the loan portfolio included a large concentration of CRE and
CLD loans, and warned management that continued strong oversight was necessary because
CRE loans may have a sudden negative impact on the bank’s financial condition. Even though
the bank’s credit risk management practices were deemed acceptable, examiners required
management to enhance CRE risk management processes by performing portfolio-level stress
testing and establishing limits on the volume of out-of-territory loans given the “softness of the
national housing markets.”

November 2008 Target Examination Resulted in a Double Downgrade to a CAMELS
Composite 4 Rating

In November 2008, FRB Kansas City conducted a target examination that focused on asset
quality, credit risk, the ALLL, and Board of Directors’ and management oversight, with a limited
review of the remaining CAMELS components. The January 2009 report double downgraded
the bank to a CAMELS composite 4 (marginal) rating. Capital, asset quality, management,
earnings, and sensitivity were also double downgraded from 2 to 4, while liquidity was
downgraded from 3 to 4.

According to supervisory guidance, institutions with a CAMELS composite 4 rating present a
risk to the DIF, and failure is a distinct possibility if the problems and weaknesses are not
satisfactorily addressed and resolved. Based on the examination findings and the protracted
downturn in the residential and commercial real estate markets, Solutions’ management, among
other things, agreed to reduce loan growth, ensure stricter adherence to concentration guidelines
defined by the Board of Directors, attract a higher level of core deposits, and remain proactive in
identifying and resolving problem credits.

Examiners expressed concern that management’s decision to execute an aggressive growth
strategy without the support of an adequate capital position resulted in the bank’s unsatisfactory
financial condition. Examiners once again stated that Solutions’ capital levels were lower than
the bank’s peer group averages. The examination report concluded that the bank’s capital



                                                17
position did not support the aggressive loan growth strategy even though Solutions received
capital injections of $8.1 million during 2008.

Examiners noted that classified assets totaled $39.6 million, a 477 percent increase from the prior
examination. According to examiners, Solutions’ asset quality deterioration was due to a
“slumping” residential and commercial real estate market exacerbated by the bank’s CRE and
CLD concentrations. The bank’s declining financial condition resulted in Solutions realizing a
loss of $3.6 million as of September 30, 2008.

Solutions’ troubled financial condition and other weaknesses led to a formal enforcement action
in the form of a Written Agreement that was executed on March 2, 2009. The Written
Agreement, among other things, required the Bank to develop plans to improve capital, asset
quality, earnings, liquidity and the ALLL methodology. The Written Agreement also
highlighted the need to reduce or mitigate the risk of CRE concentrations in light of current
market conditions.

April 2009 Joint Examination Resulted in a Downgrade to a CAMELS Composite 5 Rating
and a PCA Directive

In April 2009, FRB Kansas City and the State conducted a full scope examination that
downgraded the bank’s CAMELS composite rating to 5. Banks in this group exhibit extremely
unsafe and unsound practices or conditions and pose a significant risk to the DIF because failure
is highly probable. The capital, asset quality, management, and earnings components were also
downgraded to 5, while liquidity and sensitivity to market risk remained unchanged.

Examiners indicated that the CRE portfolio had continued to deteriorate. As of March 31, 2009,
eight CRE-related loans represented approximately 71 percent of total loan classifications. FRB
Kansas City downgraded $24.3 million in loans not previously classified by the bank.
Examiners once again noted that “the aggressive growth strategy pursued by the Board of
Directors and management without sufficient capital continues to hamper the bank’s condition.”

The August 2009 examination report noted that liquidity was inadequate and “a significant
concern.” According to examiners, the bank had reached its credit limit for FHLB borrowings
and was left with few options to improve its liquidity position. FRB Kansas City indicated that
the restrictions on deposit interest rates put into effect April 30, 2009, would further tighten
liquidity as customers withdrew deposits to seek a higher return at other financial institutions.

The examination report indicated that the bank was not in compliance with the Written
Agreement because the Board of Directors and management did not submit an acceptable capital
restoration plan. Accordingly, the Federal Reserve Board executed a PCA Directive on
October 23, 2009, that, among other things, required the bank to (1) restore its capital position to
adequately capitalized; or (2) merge with or be acquired by another depository institution.




                                                 18
November 2009 Joint Supervisory Assessment

In November 2009, FRB Kansas City and the State began a joint supervisory assessment focused
on asset quality, the ALLL, and liquidity risk. Due to the bank’s rapidly deteriorating liquidity
position, examiners anticipated that Solutions might require Discount Window access to
facilitate an orderly closing. Therefore, examiners focused on assessing the credit quality of
loans that could be pledged as collateral at the Discount Window. On November 9, 2009, FRB
Kansas City and the State issued a letter that downgraded liquidity and sensitivity to 5 ratings.
Examiners noted that liquidity had become critically deficient due to declines in deposits and
indicated that the bank’s failure appeared probable. As discussed earlier, on December 11, 2009,
the bank’s liquidity was insufficient to meet its daily operating needs, and the State declared the
bank insolvent and appointed the FDIC as receiver.

Conclusion and Lessons Learned
Solutions failed because its Board of Directors and management did not control the risks
associated with an aggressive growth strategy, funded by non-core deposit sources, that
expanded the scope of the bank’s traditional activities. This strategy resulted in the bank
developing a significant loan concentration in CRE, including CLD, that made the bank
particularly vulnerable to real estate market declines. As real estate markets served by the bank
weakened, asset quality deterioration strained earnings and depleted capital.

In October 2009, the Federal Reserve Board executed a PCA Directive that, among other things,
required Solutions to strengthen its capital position. Issuance of this formal enforcement action
resulted in net deposit withdrawals. Because of the decline in deposits and the unavailability of
alternative funding sources, Solutions sought liquidity support from the Federal Reserve
System’s Discount Window. After obtaining sufficient collateral, FRB Kansas City granted the
bank access to the Discount Window to facilitate an orderly closing of the bank. On
December 11, 2009, the bank’s liquidity was insufficient to meet its operating needs, and the
State declared Solutions insolvent and appointed the FDIC as receiver. On December 14, 2009,
the next business day, the bank that assumed Solutions’ liabilities as part of an acquisition fully
repaid the liquidity support provided to ensure the bank’s orderly closure.

With respect to supervision, FRB Kansas City complied with the examination frequency
guidelines for the timeframe we reviewed, 2004 through 2009, and conducted regular off-site
monitoring. During this period, FRB Kansas City and the State conducted four full scope
examinations, an asset quality target examination, and a supervisory assessment before Solutions
failed in December 2009. In addition, the bank was subject to two formal enforcement actions—
a Written Agreement and a PCA Directive.

Fulfilling our mandate under section 38(k) of the FDI Act provides an opportunity to determine,
in hindsight, whether additional or alternative supervisory actions could have been taken to
reduce the likelihood of a bank’s failure or loss to the DIF. Our analysis of FRB Kansas City’s
supervision of Solutions revealed that examiners had an opportunity in early 2008 for an earlier
and more forceful supervisory action given the bank’s aggressive growth strategy. In its January
2008 examination report, FRB Kansas City commented on softness in the nationwide real estate

                                                19
market and noted that the bank’s loan portfolio included a large concentration of CRE and CLD
loans. Examiners also observed that the bank’s already below peer capital ratios had declined,
and that the bank increased its reliance on non-core funding sources. In our opinion, these
findings presented an opportunity to question the advisability of management’s continued
aggressive growth strategy. However, FRB Kansas City only required the bank to develop a
more robust capital plan and to enhance its CRE risk management processes. The case for a
stronger supervisory response in the early 2008 timeframe is supported by the January 2009
examination report, which concluded that management’s decision to execute an aggressive
growth strategy without the support of adequate capital resulted in the bank’s unsatisfactory
financial condition.

While we believe that FRB Kansas City had an opportunity for an earlier and more forceful
supervisory action, it is not possible for us to predict the effectiveness or impact of any
corrective measures. Therefore, we cannot evaluate the degree to which an earlier or more
forceful supervisory response might have affected Solutions’ financial deterioration or the
ultimate cost to the DIF.

Lessons Learned

Although the failure of an individual institution does not necessarily provide sufficient evidence
to draw broad-based conclusions, we believe that Solutions’ failure offers lessons learned that
can be applied to supervising banks with similar characteristics and circumstances. First, a
community bank with large CRE and CLD loans relative to its total assets is particularly
vulnerable to real estate market declines. Second, the failure underscores the risk of pursuing a
new business strategy that features growth in high-risk lending outside of an institution’s
traditional market area. Finally, we believe the failure demonstrates that examiners should
assess capital needs based on an institution’s strategy and growth targets, in addition to the
quantitative regulatory capital levels established by PCA.

Analysis of Comments
We provided a copy of our report to the Director of the Division of Banking Supervision and
Regulation for review and comment. His response is included as Appendix 3. The Director
concurred with the conclusion and lessons learned contained in the report.




                                                20
Appendixes
Appendix 1 – Glossary of Banking and Regulatory Terms
Allowance for Loan and Lease Losses (ALLL)
The ALLL is a valuation reserve established and maintained by charges against the financial
institution’s operating income. As a valuation reserve, it is an estimate of uncollectible amounts
that is used to reduce the book value of loans and leases to the amount that is expected to be
collected. These valuation allowances are established to absorb unidentified losses inherent in
the institution’s overall loan and lease portfolio.

Brokered Deposits
Brokered deposits are deposits that are placed in a savings institution by a broker who gathers
funds from others and packages the funds in batches of $100,000. The broker then shops for
financial institutions paying the highest rates and invests in multiple $100,000 certificates of
deposit, which typically pay the highest rates of interest and are federally insured.

Classified Assets
Classified assets are loans that exhibit well-defined weaknesses and a distinct possibility of loss.
The term “classified” is divided into more specific subcategories ranging from least to most
severe: “substandard,” “doubtful,” and “loss.” An asset classified as “substandard” is
inadequately protected by the current sound worth and paying capacity of the obligor or of the
collateral pledged, if any. An asset classified as “doubtful” has all the weaknesses inherent in
one classified as “substandard,” with the added characteristic that the weaknesses make full
collection or liquidation highly questionable and improbable. An asset classified as “loss” is
considered uncollectible and of such little value that its continuance as a bankable asset is not
warranted.

Collateral
Collateral is the property or properties securing or being improved by the extension of credit.

Commercial Real Estate (CRE) Loans
CRE loans are land development and construction loans (including one- to four-family
residential and commercial construction loans) and other land loans. CRE loans also include
loans secured by multifamily property and nonfarm, nonresidential property where the primary
source of repayment is derived from rental income associated with the property or the proceeds
of the sale, refinancing, or permanent financing of the property.

Concentration
A concentration is a significantly large volume of economically related assets that an institution
has advanced or committed to a certain industry, person, entity, or affiliated group. These assets
are similarly affected by adverse economic, financial, or business conditions and, in the
aggregate, may pose risk to the safety and soundness of the institution.

Construction, Land Development, and Other Land (CLD) Loans
CLD loans are a subset of commercial real estate loans, secured by real estate (including vacant
land), for (1) construction (or alteration) of industrial, commercial, residential, or farm buildings,
and (2) land development, including pre-construction preparatory work such as laying sewer and
water pipes.
                                                 23
Appendix 1 (continued)
Discount Window
The Discount Window functions as a safety valve in relieving pressures in reserve markets;
extensions of credit can help relieve liquidity strains in a depository institution and in the
banking system as a whole.

Enforcement Actions
The Federal Reserve Board has a broad range of enforcement powers that include formal or
informal enforcement actions that may be taken, typically after the completion of an on-site bank
examination. Formal enforcement actions consist of Cease-and-Desist Orders, Written
Agreements, and Prompt Corrective Action Directives, while informal enforcement actions
include Commitments, Board Resolutions, and Memoranda of Understanding.

Liquidity
Liquidity is the ability to accommodate decreases in liabilities and to fund increases in assets. A
bank has adequate liquidity when it can obtain sufficient funds, either by increasing liabilities or
converting assets, promptly and at a reasonable cost.

Net Interest Margin
Net interest margin is a performance metric used to evaluate a bank's profitability by measuring
the difference between interest income generated in comparison to the interest paid.

Net Non-core Funding Dependence Ratio
The net non-core funding dependence ratio measures the extent to which banks fund assets with
non-core funding. Higher ratios reflect a reliance on funding sources that may not be available
in times of financial stress or adverse changes in market conditions.

Non-core Deposits
Non-core deposits include federal funds purchased, Federal Home Loan Bank advances,
subordinated notes and debentures, certificates of deposit of more than $100,000, and brokered
deposits.

Prompt Corrective Action (PCA)
PCA is a framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital position has declined below certain threshold levels. It was intended to
ensure that action is taken when an institution becomes financially troubled, in order to resolve
the problems of the institution at the least possible long-term loss to the DIF. The capital
categories are well capitalized, adequately capitalized, undercapitalized, significantly
undercapitalized, and critically undercapitalized.

Supervision and Regulation (SR) Letters
SR letters are issued by the Federal Reserve Board’s Division of Banking Supervision and
Regulation. They address significant policy and procedural matters of continuing relevance to
the Federal Reserve Board’s supervisory effort. SR letters are for distribution to supervised
institutions as well as Reserve Banks.

                                                 24
Appendix 1 (continued)
Written Agreement
A Written Agreement is a formal, legally enforceable, and publicly available enforcement action
to correct practices that are believed to be unlawful, unsafe, or unsound. All Written Agreements
must be approved by the Federal Reserve Board’s Director of the Division of Banking
Supervision and Regulation and General Counsel.




                                               25
Appendix 2 – CAMELS Rating System

Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of the institution’s financial condition and
operations. These component factors address the adequacy of capital, the quality of assets, the
capability of management, the quality and level of earnings, the adequacy of liquidity, and the
sensitivity to market risk (CAMELS). Evaluations of the components take into consideration the
institution’s size and sophistication, the nature and complexity of its activities, and its risk
profile.

Composite and component ratings are assigned based on a 1 to 5 numerical scale. A 1 indicates
the highest rating, strongest performance and risk management practices, and least degree of
supervisory concern, while a 5 indicates the lowest rating, weakest performance, inadequate risk
management practices, and the highest degree of supervisory concern.

Composite Rating Definition

The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution’s managerial, operational, financial, and compliance
performance.

Composite 1

Financial institutions in this group are sound in every respect and generally have components
rated 1 or 2. Any weaknesses are minor and can be handled in a routine manner by the Board of
Directors and management. These financial institutions are the most capable of withstanding the
vagaries of business conditions and are resistant to outside influences, such as economic
instability in their trade area. These financial institutions are in substantial compliance with laws
and regulations. As a result, these financial institutions exhibit the strongest performance and
risk management practices relative to the institutions’ size, complexity, and risk profile and give
no cause for supervisory concern.

Composite 2

Financial institutions in this group are fundamentally sound. For financial institutions to receive
this rating, generally no component rating should be more severe than 3. Only moderate
weaknesses are present and are well within the Board of Directors’ and management’s
capabilities and willingness to correct. These financial institutions are stable and are capable of
withstanding business fluctuations. These financial institutions are in substantial compliance
with laws and regulations. Overall risk management practices are satisfactory relative to the
institutions’ size, complexity, and risk profile. There are no material supervisory concerns; and,
as a result, the supervisory response is informal and limited.




                                                 27
Appendix 2 (continued)
Composite 3

Financial institutions in this group exhibit some degree of supervisory concern in one or more of
the component areas. These financial institutions exhibit a combination of weaknesses that may
range from moderate to severe; however, the magnitude of the deficiencies generally will not
cause a component to be rated more severely than 4. Management may lack the ability or
willingness to effectively address weaknesses within appropriate time frames. Financial
institutions in this group generally are less capable of withstanding business fluctuations and are
more vulnerable to outside influences than those institutions rated a composite 1 or 2.
Additionally, these financial institutions may be in significant noncompliance with laws and
regulations. Risk management practices may be less than satisfactory relative to the institutions’
size, complexity, and risk profile. These financial institutions require more than normal
supervision, which may include formal or informal enforcement actions. Failure appears
unlikely, however, given the overall strength and financial capacity of these institutions.

Composite 4

Financial institutions in this group generally exhibit unsafe and unsound practices or conditions.
There are serious financial or managerial deficiencies that result in unsatisfactory performance.
The problems range from severe to critically deficient. The weaknesses and problems are not
being satisfactorily addressed or resolved by the Board of Directors and management. Financial
institutions in this group generally are not capable of withstanding business fluctuations. There
may be significant noncompliance with laws and regulations. Risk management practices are
generally unacceptable relative to the institutions’ size, complexity, and risk profile. Close
supervisory attention is required, which means, in most cases, formal enforcement action is
necessary to address the problems. Institutions in this group pose a risk to the DIF. Failure is a
distinct possibility if the problems and weaknesses are not satisfactorily addressed and resolved.

Composite 5

Financial institutions in this group exhibit extremely unsafe and unsound practices or conditions;
exhibit a critically deficient performance; often contain inadequate risk management practices
relative to the institutions’ size, complexity, and risk profile; and are of the greatest supervisory
concern. The volume and severity of problems are beyond management’s ability or willingness
to control or correct. Immediate outside financial or other assistance is needed in order for the
financial institutions to be viable. Ongoing supervisory attention is necessary. Institutions in
this group pose a significant risk to the DIF, and failure is highly probable.




                                                 28
Appendix 3 – Division Director’s Comments


                  BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                            Division of Banking Supervision and Regulation


  Date:    June 28, 2010
   To:     Elizabeth A. Coleman, Inspector General
 From:     Patrick M. Parkinson, Director, Banking Supervision and Regulation /signed/
Subject:   Material Loss Review of SolutionsBank



        The staff of the Division of Banking Supervision and Regulation has reviewed the draft
material Loss Review of SolutionsBank of Overland Park, Kansas, prepared by the Office of
Inspector General (IG) in accordance with section 38(k) of the Federal Deposit Insurance Act.
The report finds that SolutionsBank failed because its Board of Directors and management did
not control the risks associated with an aggressive growth strategy, funded by non-core deposit
sources. The strategy resulted in the bank developing significant commercial real estate (CRE)
and construction, land, and land development (CLD) lending concentrations that made the bank
particularly vulnerable to real estate market declines. As real estate markets weakened, asset
quality deterioration strained earnings and depleted capital. SolutionsBank was supervised by
the Federal Reserve Bank of Kansas City (FRB Kansas City) under delegated authority from the
Board.

        Banking Supervision and Regulation staff concur with the conclusions and lessons
learned in the report. FRB Kansas City complied with examination frequency guidelines for the
period that was reviewed, 2004 through 2009, and conducted regular off-site monitoring. During
this time period, FRB Kansas City and the State of Kansas conducted four full scope
examinations, as asset quality target examination, and a supervisory assessment. SolutionsBank
was placed under a Written Agreement in 2008 and became subject to a PCA Directive in 2009.
The report notes that in the January 2008 examination report, FRB Kansas City commented on
“softening” in the nationwide real estate market and the bank’s large concentration of CRE and
CLD loans, as well as on the bank’s declining capital levels and increased reliance on non-core
funding sources. While FRB Kansas City required the bank to develop a more robust capital
plan and enhance CRE risk management processes, the report concludes that, in hindsight,
examiners had an opportunity in early 2008 for an earlier and more forceful supervisory action.
The report also indicates that it is not possible to predict the effectiveness or impact of any
corrective measures, nor to evaluate the degree to which an earlier or more forceful supervisory
response might have affected SolutionsBank’s financial deterioration or the ultimate cost to the
DIF.




                                                 29
Appendix 3 (continued)

        The report identifies several important lessons. First, community banks with larger CRE
and CLD loans relative to total assets are vulnerable to real estate market declines. Second, there
can be risks associated with pursuing a new business strategy featuring growth in high-risk
lending outside of an institution’s traditional market area. And third, examiners should assess
capital needs based on an institution’s strategy and growth targets in addition to the quantitative
capital levels established by the prompt corrective action regulation.




                                                30
Appendix 4 – Principal Office of Inspector General Contributors to this
            Report
John F. Ayers III, Project Leader and Senior Auditor

Jennifer A. Rosholt-High, Auditor

Kimberly A. Whitten, Project Manager

Anthony J. Castaldo, Assistant Inspector General for Inspections and Evaluations




                                              31
